No:
IN THE SUPREME COURT OF THE UNITED STATES
LAMAR JOHNSON,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF SERVICE
I certify that on this I Eth day of February, 2021, in accordance with Sup. Ct.
R. 29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to
Proceed In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying
Timely Filing, were served by third-party commercial carrier for delivery within
three days upon the Office of the Solicitor General of the United States of America,
950 Pennsylvania Ave., NW, Washington, D.C. 20530-0001.

Dated: February17/ , 2021

STEVEN G. KALAR
Defen

ROBIN PACKEL*
Assistant Federal Public Defender

* Counsel of Record
1301 Clay Street, Suite 1350N
Oakland, CA 94612
(510) 637-3500
robin_packel@fd.org

